Audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Pine Bluff, Arkansas
Police Department
GR-80-01-007	
February 1, 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Pine Bluff, Arkansas, Police Department.  The purpose of the grants is to enhance community policing.  The police department was awarded a total of $944,359 to hire 10 new police officers, and to redeploy the equivalent of 12.4 existing full-time officers from administrative duties to community policing.

We reviewed the police department's compliance with eight essential grant conditions.  We found the following six conditions acceptable: grantee's budgeting practices, hiring of police officers, source of local matching funds, planning for retention of officer positions, officer redeployment, and community policing activities.  However, we found weaknesses in the areas of reimbursement requests and grantee reporting as identified below.  As a result, we recommend that $3,488 be put to better use. 1

The police department claimed costs for salary and fringe benefits in excess of the allowable costs under the MORE 98 grant.

	The police department will not draw down all MORE 98 grant funds prior to the award expiration, resulting in $3,488 in funds to be put to better use.

	Two Department Annual Reports were not submitted timely.

	The Financial Status Reports were not always submitted timely, and were not always accurate.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in App


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.